<html>
<title> - IRGC TERRORIST SANCTIONS ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                  IRGC TERRORIST SANCTIONS ACT OF 2015

=======================================================================

                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3693

                               __________

                           SEPTEMBER 27, 2016

                               __________

                           Serial No. 114-226

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-675PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 3693, To require a report on whether Iran's Islamic 
  Revolutionary Guard Corps is a terrorist entity, and for other 
  purpose........................................................     2
  Amendment in the nature of a substitute to H.R. 3693 offered by 
    the Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................     5

                                APPENDIX

Markup notice....................................................    10
Markup minutes...................................................    11
Markup summary...................................................    12
 
                  IRGC TERRORIST SANCTIONS ACT OF 2015

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Paul Cook 
presiding.
    Mr. Cook. The subcommittee will come to order.
    Pursuant to notice, we will meet today and mark up an 
important piece of terrorist sanctions legislation.
    I now call up the bill H.R. 3693, the Islamic Revolutionary 
Guard Corps Terrorist Sanctions Act of 2015. Without objection, 
the bill is considered read and open for amendment at any point 
and all members may have 5 days to submit statements and 
materials for the record.
    To expedite our consideration, I ask unanimous consent that 
we consider the amendment in the nature of a substitute offered 
by Ranking Member Keating, which is the product of an agreement 
between the Chair and the ranking member and which all members 
have in front of them as them as the base text.
    Hearing no objection, so ordered.
    [The information referred to follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Mr. Cook. I now recognize myself to speak on the bill and 
in light of the fact that if called, votes--excuse me--I am 
going to, if there is no objection, just submit that as part of 
the record and dismiss with my reading.
    And I now recognize the ranking member for his comments on 
today's measures.
    Mr. Keating. Thank you, Mr. Chairman. I'll just try and be 
very quick in my reading of this, given the rollcall that we 
have in front of us.
    I want to thank the chairman for putting forward this bill 
and for highlighting our continued efforts to work together to 
ensure our country is appropriately addressing nefarious 
actors.
    Iran's Revolutionary Guard Corps continues to act as a 
destabilizing force in the Middle East and beyond. Over the 
years, branches of our Government have determined that portions 
of the IRGC support terrorism such as the Quds Force and have 
since designated sponsors--them as sponsors of terrorism.
    H.R. 3693, the IRGC Terrorist Sanctions Act of 2015, 
requires the Treasury Department to report on whether the 
Revolutionary Guard meets requirements for designation of a 
terrorist entity under the Executive order, Executive Order 
13224, which targets global terrorist activity and whether the 
IRGC's control of a company's board of directors should trigger 
such designation.
    Already the Corps has been sanctioned to various degrees. 
For example, in 2007, the IRGC was designated by Executive 
order for having engaged in proliferation-related activities.
    Again, in June 2011, Treasury designated the IRGC for its 
role in human rights abuses in Iran following the disputed June 
2009 Presidential election.
    Most recently in April 2012, Treasury designated the IRGC 
for its activity in connection with human rights through the 
use of information and communication technology.
    While it remains unclear how additional designation would 
impact IRGC's activities, there is no mistaking the nefarious 
role the network has played in promoting instability.
    To this end, it is imperative that we continue to hold Iran 
accountable for its actions and be subject to secondary 
sanctions.
    Further, I believe it is important that we ensure Congress 
has the complete picture when discussing additional sanctions 
against another country.
    This includes allowing individuals in the intelligence 
community the opportunity to provide unfiltered analysis. My 
amendment incorporates this amendment in the nature of a 
substitute, ensuring that classified annex of materials may be 
provided to the appropriate committees.
    This will significantly aid our receipt of the full picture 
as would be incorporated in the report authorizing this 
legislation.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Cook. Thank you very much, Congressman Keating.
    Do any other members seek recognition to speak on the bill?
    Yes, sir. The Congressman from California, Congressman 
Sherman.
    Mr. Sherman. Clearly, the IRGC is a terrorist organization. 
It ought to be designated as such.
    Congress has been, I think, too shy in failing to pass 
legislation to simply designate entities. But in this case, I 
am sure the review will end up where it should and in the 
future we may simply designate these rather than go through a--
have the State Department go through a process that will lead 
to that same designation.
    I yield back.
    Mr. Cook. Thank you.
    Congressman Perry.
    Seeing no other--I just want to make one final comment. I 
didn't want to talk much on this but this is something very, 
very significant because the organization we are talking about 
had an incident a long time ago in 1983.
    It was the Marine barracks in Beirut that was blown up. 
That was my old battalion--1st Battalion 8th Marines--where we 
lost over 260 Marines, sailors and soldiers.
    So, obviously, I support this bill and hearing no further 
amendments----
    Mr. Keating. Mr. Chairman, I have one other thing.
    Mr. Cook. Yes, sir.
    Mr. Keating. Just--I did want to comment and thank you, Mr. 
Chairman, and members of the committee, and in his absence I 
wanted to thank Chairman Poe for his work and the work we put 
together dealing with it.
    We did it in a very cooperative and bipartisan manner and 
although it is great to see you, Mr. Chairman, I know I speak 
for the rest of the committee. We can't wait to see him back 
here.
    I yield back.
    Mr. Cook. Well, thank you for your comments. Our thoughts 
and prayers go with Chairman Poe and I know I am not chopped 
liver and can never be.
    But hearing no further amendments, I move that the bill as 
amended be favorably reported to the full committee.
    I have to have a teleprompter and what have you. Okay.
    The vote itself--all those in favor say aye.
    Those opposed say no.
    In the opinion of the chair, the ayes have it. The motion 
is approved. The bill is reported favorably as amended.
    So now we are going to go and--we are going to adjourn and 
then come back for our hearing at 2:45. So everybody get on 
their starting blocks and make votes.
    [Whereupon, at 2:08 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                   


                                 [all]
</pre></body></html>
